               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Officers’ Travel and Representation
      Expenses for Fiscal Year 2012


                       Audit Report




                                          December 11, 2012

Report Number FT-AR-13-004
                                                                   December 11, 2012

                                                Officers’ Travel and Representation
                                                      Expenses for Fiscal Year 2012

                                                        Report Number FT-AR-13-004



BACKGROUND:
The Postal Reorganization Act of 1970,      WHAT THE OIG RECOMMENDED:
as amended, requires annual audits of       Based on the audit results, we are not
the U.S. Postal Service’s financial         making any recommendations.
statements. As part of these audits, the
Board of Governors (Board) adopted          Link to review the entire report
policies and procedures that require an
annual audit of officers’ travel and
representation expenses.

Postal Service officers shape the
strategic direction of the Postal Service
by setting goals, targets, and indicators
within the framework established by the
Board. Their positions are classified as
Postal Career Executive Service II and
include the postmaster general, deputy
postmaster general, and all vice
presidents. The Board has authorized
50 Postal Service officer positions.
Our objective was to determine whether
travel and representation expenses
claimed by Postal Service officers were
properly supported and complied with
Postal Service policies and procedures.

WHAT THE OIG FOUND:
Officers’ travel and representation
expenses totaling about $806,000 were
properly supported and complied with
Postal Service policies and procedures.
December 11, 2012

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Finance and Systems Accountability

SUBJECT:                   Audit Report – Officers’ Travel and Representation
                           Expenses for Fiscal Year 2012
                           (Report Number FT-AR-13-004)

This report presents the results of our audit of the U.S. Postal Service Officers’ Travel
and Representation Expenses for Fiscal Year 2012 (Project Number 12BG010FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jack L. Meyer
    Corporate Audit and Response Management
Officers’ Travel and Representation                                                                                FT-AR-13-004
 Expenses for Fiscal Year 2012


                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

   Progress on Prior Year’s Report .................................................................................. 1

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 5
Officers’ Travel and Representation                                                                     FT-AR-13-004
 Expenses for Fiscal Year 2012



Introduction

This report presents the results of our audit of the U.S. Postal Service Officers’ Travel
and Representation Expenses for Fiscal Year (FY) 2012 (Project Number
12BG010FT000). We conducted this audit in response to the Board of Governors’
(Board) policies and procedures requiring an annual audit of officers’ travel and
representation expenses. 1 Our audit objective was to determine whether travel and
representation expenses claimed by officers were properly supported and complied with
Postal Service’s policies and procedures. 2 This audit addresses financial risk. See
Appendix A for additional information about this audit.

Postal Service officers shape the strategic direction of the Postal Service by setting
goals, targets, and indicators within the framework established by the Board. Their
positions are classified as Postal Career Executive Service II and include the
postmaster general (PMG), deputy PMG, and all vice presidents. The Board has
authorized 50 Postal Service officer positions, 38 of which were filled at the end of
FY 2012, including one acting officer position.

The Postal Reorganization Act of 1970, as amended, requires an annual audit of the
Postal Service’s financial statements. As part of this audit, the Board adopted policies
and procedures that require annual audits of officers’ travel and representation
expenses. During FY 2012, Postal Service officers filed 851 claims totaling about
$806,000.

Conclusion

Based on the judgmental sample results, officers’ travel and representation expenses
totaling about $806,000 were properly supported and complied with Postal Service
policies and procedures. Based on the results, we are not making any
recommendations in this report and, as result, management chose not to respond
formally.

Progress on Prior Year’s Report

In the FY 2011 audit report, we noted that officers did not always comply with the
guidelines when claiming travel and representation expenses. Specifically, we found
issues regarding the timeliness of claims, international approval letters, travel deviation
requests, alcohol purchases, and parking fees. We did not make any recommendations

1
  Representation expenses nearly always involve one or more non-Postal Service employee (suppliers, customers,
and foreign postal administrators) and a Postal Service officer.
2
  The audit universe was limited to reimbursements processed through the eTravel System. The eTravel System is
the online application used to create work travel expense reports, electronically submit expense reports to authorized
approvers, and track reimbursement status.
                                                           1
Officers’ Travel and Representation                                            FT-AR-13-004
 Expenses for Fiscal Year 2012



because management issued new guidelines in July 2011 and made staff changes that
impacted oversight of the officers’ travel reimbursement process. In addition, they
provided training to the officers and their administrative assistants on the new guidelines
in FY 2012. We did not identify any significant issues related to the expense claims for
FY 2012 and consider this matter closed.




                                             2
Officers’ Travel and Representation                                                                   FT-AR-13-004
 Expenses for Fiscal Year 2012



                                  Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970, as amended, requires an annual audit of the
Postal Service’s financial statements. As part of this audit, the Board adopted policies
and procedures that require an annual audit of officers’ travel and representation
expenses.

Officers shape the strategic direction of the Postal Service by setting goals, targets, and
indicators within the framework established by the Board. Their positions are classified
as Postal Career Executive Service II and include the PMG, deputy PMG, and all vice
presidents. The Board has authorized 50 Postal Service officer positions, 38 of which
were filled at the end of FY 2012, including one acting officer position.

Officers are reimbursed for actual transportation and lodging expenses incurred while
on official travel. In addition, they receive a per diem amount based on the General
Services Administration’s per diem rates. 3 Officers are also reimbursed for
representation expenses incurred with customer, industry, or employee groups with
whom the Postal Service conducts official business. Postal Service policy requires
officers to claim reimbursement for all travel and representation expenses through the
eTravel system.

Objective, Scope, and Methodology

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers during FY 2012 were properly supported and
complied with Postal Service policies and procedures. In support of this objective, we
judgmentally sampled and reviewed 68 reimbursements, totaling about $153,000. 4 We
reviewed a minimum of 15 claims made by existing or acting officers each quarter, out
of a universe of 851 claims, totaling about $806,000. We used the following as our
criteria in evaluating reported expenses:

      Postal Service guidelines the PMG issued on April 13, 2009, and revised on
       July 29, 2011.

      Postal Service Handbook F-15, Travel & Relocation, updated with Postal Bulletin
       revisions through March 24, 2011.

      Management Instruction FM-640-2008-1, Expenses for Internal and External Events,
       dated September 10, 2008.


3
    Per diem covers all meals, dry cleaning, skycap/bellhop tips, newspapers, and other incidentals.
4
    We included at least one reimbursement for each officer and all reimbursements of $7,000 and above.



                                                          3
Officers’ Travel and Representation                                           FT-AR-13-004
 Expenses for Fiscal Year 2012



We conducted this performance audit from December 2011 through December 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Our tests of controls were limited to those necessary to achieve our audit objective. Our
procedures were not designed to provide assurance on internal controls. Consequently,
we do not provide an opinion on such controls. Also, our audit does not provide
absolute assurance of the absence of fraud or illegal acts, due to the nature of evidence
and the characteristics of such activities.

We relied on computer-generated data from the Accounting Data Mart (ADM) and
eTravel systems. We assessed the reliability of these systems’ data by tracing the
68 travel reimbursements claimed in eTravel to the data in the ADM system. Moreover,
we verified the travel reimbursement amounts were posted to the appropriate general
ledger accounts in ADM. We determined that the data were sufficiently reliable for the
purposes of this report.




                                            4
Officers’ Travel and Representation                                          FT-AR-13-004
 Expenses for Fiscal Year 2012



Prior Audit Coverage

                                                        Final
                                                       Report            Monetary
           Report Title             Report Number       Date               Impact
Postal Service Officers’ Travel      FT-AR-12-008    12/19/2011             None
and Representation Expenses
for Fiscal Year 2011
Report Results:
Officers’ travel and representation expenses totaling about $700,000 were
supported. However, officers did not always comply with Officers’ Travel and
Representation Expense Guidelines when claiming expenses incurred during
official travel and representation. Due to several staff changes management made
that impacted oversight of the officer’s reimbursement process throughout FY 2011,
revision of the guidelines in July 2011, and management’s plan to provide training
on the new guidelines to officers and their administrative assistants by the end of
FY 2012, we made no recommendations.

Postal Service Officers’ Travel   FT-AR-11-003         12/6/2010         None
and Representation Expenses
for Fiscal Year 2010
Report Results:
Based on the sample results, officers’ travel and representation expenses totaling
about $628,000 were properly supported and complied with Postal Service policies
and procedures. We made no recommendations.

Postal Service Officers’ Travel   FT-AR-10-007          2/2/2010         None
and Representation Expenses
for Fiscal Year 2009
Report Results:
Based on the sample results, officers’ travel and representation expenses totaling
about $567,000 were supported. We also noted the Postal Service significantly
reduced its expenses, from a high of about $1.3 million in FY 2005. We made no
recommendations.




                                           5
